March 2007
Report No. 07-009


FDIC’s Contract Planning and
Management for Business Continuity




              AUDIT REPORT
                                                                                     Report No. 07-009
                                                                                          March 2007
                                    FDIC’s Contract Planning and Management for
                                    Business Continuity
                                    Results of Audit

                                    The FDIC has planned to ensure contract services are provided in the
Background and Objective of         event of an emergency and is continuing to improve contract
the Audit                           management for business continuity. The FDIC has identified most
                                    essential contracts for business continuity purposes and modified
The Federal Emergency               many of those contracts to include emergency preparedness clauses.
Management Agency issued            Also, the FDIC has a process to update its list of essential contracts in
Federal Preparedness Circular 65    the BCP annually. The FDIC could further improve its contract
(FPC 65), providing guidance for
                                    planning and management for business continuity by:
agencies to use in developing
continuity of operations plans.
The FDIC’s Emergency                    •   enhancing BCP procedures and the Business Impact Analysis
Preparedness Program                        questionnaire to require documentation of all essential
establishes the FDIC’s business             contracts, including detailed information about each contract;
continuity policy and requires          •   requiring program offices to include emergency preparedness
Business Continuity Plans (BCP)             clauses in the Statement of Work for essential contracts and
to be established in the FDIC’s             subcontracts to ensure that business continuity is considered in
Washington Area Headquarters                the procurement process; and
Offices and in each of the
                                        •   amending acquisition policy and procedures and BCP policy
regional offices. The BCPs
include procedures for relocating           to require that essential contractors (a) have emergency plans
essential personnel; resuming               for providing services to the FDIC in the event of a disruption
and restoring FDIC critical                 of normal operations and (b) participate in the FDIC’s
business processes; and                     business continuity testing, training, and exercise activities.
recovering and reconstituting
supporting information              Additional guidance in the FDIC’s Acquisition Policy Manual and
technology systems. Identifying     BCP policy and procedures would help to ensure that contractor
essential contracts and ensuring    activities are fully integrated into FDIC business continuity planning
that contracts provide for          to enhance the FDIC’s readiness to continue essential operations in
services in the event of a BCP      emergency situations.
scenario are critical to FDIC
operations.
                                    Recommendations and Management Response
The objective of this audit was
to determine whether the FDIC       We made three recommendations to strengthen the FDIC’s contract
has planned for essential           planning and management for business continuity. DOA concurred
contract services to be provided    with our recommendations and has completed corrective actions.
in the event of an emergency
that requires implementation of
the FDIC’s BCP.



To view the full report, go to
www.fdicig.gov/2007reports.asp
                                TABLE OF CONTENTS


BACKGROUND                                              1

     FDIC Emergency Preparedness                        2

     Business Impact Analysis                           2

     Business Continuity Planning                       3

     BCP Testing, Training, and Exercise                4

RESULTS OF AUDIT                                        5

BUSINESS IMPACT ANALYSIS                                6

     Use of Emergency Preparedness Clauses              6

     Recommendation                                     7

BUSINESS CONTINUITY PLANNING                            7

     Contracting Procedures for Essential Services      7

     Contracting Procedures for Subcontractors          9

     Recommendation                                     9

BCP PROCEDURES FOR CONTRACTOR TESTING, TRAINING, AND   10
EXERCISES

     Testing, Training, and Exercises                  10

     Recommendation                                    11

CORPORATION COMMENTS AND OIG EVALUATION                11

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY          13
APPENDIX II: CORPORATION COMMENTS                      15
APPENDIX III: MANAGEMENT RESPONSE TO RECOMMENDATIONS   18

TABLE
Summary of Results of Audit                             5
ACRONYMS

APM        Acquisition Policy Manual
ASB        Acquisition Services Branch
BCP        Business Continuity Plan
BIA        Business Impact Analysis
COOP       Continuity of Operations Plan
DOA        Division of Administration
DIT        Division of Information Technology
EPP        Emergency Preparedness Program
ERP        Emergency Response Plan
FEMA       Federal Emergency Management Agency
FFIEC      Federal Financial Institutions Examination Council
FPC        Federal Preparedness Circular
GSA        General Services Administration
GPRA       Government Performance and Results Act
ISC        Infrastructure Services Contract
IT         Information Technology
ITAS       Information Technology Applications Systems
NIST       National Institute of Standards and Technology
OIG        Office of Inspector General
SEPS       Security and Emergency Preparedness Section
SRA        SRA International, Inc.
Federal Deposit Insurance Corporation                                                                   Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                    Office of Inspector General



DATE:                                     March 30, 2007

MEMORANDUM TO:                            Arleas Upton Kea, Director
                                          Division of Administration


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Contract Planning and Management for Business
                                          Continuity (Report No. 07-009)

This report presents the results of our audit of the FDIC’s Contract Planning and Management
for Business Continuity. As of December 31, 2006, the FDIC had eight contracts valued at more
than $800 million that were deemed essential to its critical business processes. The objective of
this audit was to determine whether the FDIC has planned for essential contract services to be
provided in the event of an emergency that requires the implementation of the FDIC’s Business
Continuity Plan (BCP).1 Additional details on our objective, scope, and methodology are
provided in Appendix I.

BACKGROUND
In June 2004, the Federal Emergency                                    Elements of a Viable COOP Capability
Management Agency (FEMA) revised Federal
Preparedness Circular (FPC) 65, Federal                                    •    Essential Functions
Executive Branch Continuity of Operations,2 to                             •    Plans and Procedures
assist Federal Executive Branch departments,                               •    Orders of Succession
agencies and independent organizations in                                  •    Delegations of Authority
developing contingency plans and programs for                              •    Alternate Facilities
                                                                           •    Redundant Emergency
the continuity of operations (COOP)3 and to
                                                                                Communications
identify elements of a viable COOP capability.
                                                                           •    Vital Records
                                                                           •    Testing, Training, and Exercises
FPC 65 states that COOP planning includes the
activities of individual departments and agencies and                  Source: FPC 65.
their subcomponents to ensure that their essential
functions are performed during any emergency or


1
  The FDIC’s contract planning and management for business continuity was also addressed in a previous FDIC
Office of Inspector General (OIG) report, FDIC’s Business Continuity Plan (Report No. 04-029, dated August 9,
2004), which discusses the OIG’s assessment of the FDIC’s BCP against 14 key elements of business continuity
planning.
2
  The FDIC has determined that FPC 65 contains guidance, not legally binding requirements, for the FDIC.
3
  The terms COOP and BCP are generally considered synonymous.
situation that may disrupt normal operations. FPC 65 further states that COOP planning (1) is
part of the fundamental mission of federal agencies as responsible and reliable public institutions
and (2) requires a comprehensive program to ensure the continuity of essential federal functions.

FDIC Emergency Preparedness

FDIC Circular 1500.5, FDIC Emergency Preparedness Program, dated January 30, 2007, serves
as the official policy for FDIC Headquarters and regional offices in developing, implementing,
and maintaining an FDIC Emergency Preparedness Program (EPP) to safeguard personnel and
continue critical business processes during emergencies. The circular was updated during our
audit, and the OIG provided comments during the revision process. FDIC Circular 1500.5 states
that the EPP supports emergency preparedness planning guidance as outlined in FPC 65, as well
as industry-recognized emergency preparedness best practices. Three components comprise the
EPP: the Emergency Response Plan (ERP), a BCP, and any other plans necessary to prepare for
an emergency. The ERP documents the procedures and structure for a coordinated response to
an emergency and focuses on mitigating injuries and loss of life to FDIC personnel, contractors,
and visitors at FDIC locations. The BCP documents the procedures for relocating essential
personnel; resuming and restoring FDIC critical business processes; and recovering and
reconstituting supporting information technology (IT) systems. The BCP is composed of
individual division and office continuity plans, which identify critical business functions; how
soon those functions must be operational in emergency situations; and the personnel, equipment,
and systems resources needed to operate those functions during an emergency. The FDIC
updates its BCP annually, as discussed below.

Business Impact Analysis                                          Business Impact Analysis Objectives

FPC 65 provides that planning requirements for a viable                •    Identifying and prioritizing
COOP capability must include the development,                               essential functions, business
maintenance, and annual review of agency COOP                               processes, and mission-critical
capabilities using a multi-year strategy and program                        applications
management plan. The FDIC addresses this requirement in                •    Defining the criticality criteria
the EPP by requiring an annual Business Impact Analysis                •    Determining the disaster cost
(BIA). The BIA is a tool that enables full characterization                 impact on business processes
of system requirements, processes, and interdependencies               •    Identifying critical application
to determine contingency requirements and priorities. The                   interdependencies
BIA’s purpose is to correlate specific system components               •    Defining recovery windows for
with the critical services they provide, and based on that                  critical applications
information, to characterize the consequences of a
                                                                  Source: FDIC Circular 1500.5.
disruption to the system components.

During the BIA, critical business function requirements and critical IT applications are reviewed,
validated, added, or removed. The Division of Administration (DOA) is responsible for
conducting an annual BIA with the FDIC’s divisions and offices. The BIA serves as the basis for
updating the corporate BCP and, as required, BCPs for the FDIC’s divisions, offices, and regions.




                                                 2
Each year, the Directors of DOA and the Division of Information Technology (DIT) issue a
BIA letter and BIA questionnaire to each FDIC division and office, informing them that BCPs
will be updated based on completion of the annual BIA. The BIA letter notifies the divisions
that DOA’s Security and Emergency Preparedness Section (SEPS) and DIT security personnel
will be meeting with them to obtain updated information on their critical business functions and
resources requirements to accomplish these critical functions.

The BIA questionnaire obtains information on the: resources, assets, and applications that are
critical to the divisions and offices and to the mission of the FDIC. During BIA meetings,
SEPS and DIT personnel obtain additional detailed information on the functions the divisions
and offices would require in an emergency, such as personnel, equipment, facilities, records,
systems, interdependencies, and essential contracts and points of contact. The divisions and
offices return the completed questionnaires to SEPS and DIT which, together with the results of
the BIA meetings, are used in updating BCPs.

Business Continuity Planning
                                                              Key Elements of the FDIC’s Business
According to FDIC Circular 1500.5, the BCPs are               Continuity Plan
the components of the EPP that document the
procedures for relocating essential personnel,                     •    Continuity Roles and
resuming and restoring FDIC critical business                           Responsibilities
processes, and recovering and reconstituting                       •    Orders of Succession
supporting IT systems. The FDIC’s division and                     •    Plan Activation Criteria
office Directors, Regional Directors, and                          •    Alert and Notification Procedures
Managers are required to develop BCPs that can                     •    Alternate Operating Facility
facilitate the resumption of critical business                          Designation
processes within 12 hours of plan activation and                   •    Prioritized list of Essential Functions
are capable of sustaining operations for up to 30                  •    Identification of Key Contractors
days. These BCPs are included in the corporate                     •    Interoperable Emergency
BCP. Each BCP must be reviewed by the                                   Communications
Assistant Director, SEPS, for final approval by the                •    Training and Exercise Events
FDIC Chairman or designee. The current                        Source: FDIC Circular 1500.5.
corporate BCP was revised during 2006 and was
issued on February 12, 2007.

The Headquarters BCP has identified a primary and secondary alternate facility for critical
personnel if the FDIC Headquarters in Washington, D.C., is inaccessible or uninhabitable. Also,
each regional office has a designated alternate worksite for relocating critical personnel if the
vicinity surrounding a regional office becomes inaccessible or uninhabitable.

Identification of Essential Contracts. FDIC Circular 1500.5 states that BCPs should identify
key contractors needed to operate during an emergency. Such contractors provide essential
services in support of the FDIC’s business processes. For example, the FDIC relies on
contractors to support its designated alternate locations in the event of an emergency. The FDIC
conducted a review of contracts during 2005 to identify those considered essential for business
continuity. Specifically, contracts for IT support and maintenance, security services, call center




                                                3
operations, fuel and facilities, shuttle services, cafeteria operations, and others were identified as
essential. Once essential contracts had been identified, the FDIC’s Legal Division worked with
DOA’s Acquisition Services Branch (ASB)4 to draft emergency preparedness clauses to be
added as modifications to the FDIC’s essential contracts in accordance with the acquisition
process outlined in the FDIC’s Acquisition Policy Manual (APM),5 which governs contracting
activities. The list of essential contracts and emergency points of contact were then added to the
FDIC’s Headquarters BCP. The FDIC plans to use the annual BIA process to update the list of
essential contracts used in BCPs. The Assistant Director, SEPS, stated that although SEPS is
responsible for preparing the corporate BCP, the divisions are responsible for determining those
contracts they consider essential and for ensuring that ASB adds contract clauses addressing
business continuity to the essential contracts.

                                                                  BCP Testing, Training, and Exercise

                                                      FPC 65 states that testing, training, and
                                                      exercise are essential to demonstrating,
            BIA                   BCP                 assessing, and improving the ability of
                                                      agencies to execute their COOP plans.
                                                      FDIC Circular 1500.5 identifies the linkage
                        TESTING,                      of the processes for BIAs; BCPs; and
                        TRAINING, &                   testing, training, and exercise designed to
                        EXERCISE                      maintain a viable emergency response
                                                      capability. The BCPs at FDIC
  Source: OIG Analysis.                               Headquarters and the regional offices are
tested annually through table-top6 and situation room7 exercises to validate information in the
BCP. Lessons learned from these exercises are then incorporated into the plans accordingly.

In addition, Headquarters and the regional office staff plan to participate in local exercises
sponsored by various agencies, including the FEMA and the Federal Executive Councils located
in major U.S. cities. SEPS advised us that it does not perform testing of essential contractor
emergency response activities, and such testing is not currently required by the FDIC’s Circular
1500.5. However, SEPS is responsible for the Security Guard contract, which supports all
corporate components and has verified that the contractor has a plan that will provide guards in
an emergency situation.



4
  ASB is responsible for fulfilling the FDIC’s procurement responsibilities, including issuing policies and
procedures governing contracts for goods and services.
5
  The APM establishes an updated set of policies and procedures for: (a) procuring goods and services on behalf of
the Corporation in its corporate, receivership, and conservatorship capacities; and (b) identifying roles and
responsibilities for all FDIC employees involved in the pre-solicitation, solicitation, proposal evaluation, award, and
contract administration phases of the procurement process.
6
  Table-top exercises involve a test moderator setting forth a disaster scenario and the various recovery teams
walking through their documented tasks in responding to the particular situation with an eye toward correcting any
shortcomings in either the strategy or planned response.
7
  Situation room exercises include table-top exercises and engage some or all of the recovery strategy such as
routing actual telecommunications traffic to the alternate facility.



                                                           4
RESULTS OF AUDIT

The FDIC has planned for essential contract services to be provided in the event of an emergency
that requires implementation of the FDIC’s corporate BCP. The FDIC established a process for
performing BIAs; business continuity planning; and testing, training, and exercise activities that
considers essential contract services. Also, the FDIC has identified most of its essential contracts
for business continuity purposes and modified many of those contracts to include emergency
preparedness clauses and plans to update FDIC essential contracts during the Corporation’s 2007
BIA process. However, as summarized in the table below, the FDIC could further improve its
contract planning and management for business continuity by including additional controls in the
FDIC’s EPP and APM related to essential contractors and subcontractors. These improvements
will help to ensure that essential contractors are more fully integrated into the FDIC’s business
continuity activities to provide services in emergency situations.

Summary of Results of Audit

FDIC Process                     FDIC Procedures for Essential Contractors           Improvement Needed
Business Impact Analysis         Essential functions are reviewed and updated        The BIA questionnaire does not
                                 during the annual BIA process.                      solicit key information on
                                                                                     essential contractors and
                                                                                     subcontractors.
Business Continuity              Emergency preparedness clauses are included in      The APM does not include a
Planning                         essential contracts.                                requirement for contracts to be
                                                                                     evaluated to determine whether
                                                                                     emergency preparedness clauses
                                                                                     should be included for prime
                                                                                     contractors and subcontractors
                                                                                     during preparation of the contract
                                                                                     Statements of Work.
Testing, Training, and           The EPP requires regularly-scheduled training       Essential contractors are not
Exercise                         and exercise events such as table-top and           required to submit their
                                 functional exercises and personnel recall roster    emergency plans for FDIC
                                 tests.*                                             functions for review and
                                                                                     incorporation, as appropriate, into
                                                                                     the FDIC’s BCPs.

                                                                                      Essential contractors do not
                                                                                      participate in FDIC BCP testing,
                                                                                      training, and exercises.
* Recall rosters list essential FDIC senior management and personnel who are notified by electronic means to report
to a designated location in the event of an emergency or implementation of the FDIC’s BCP.




                                                         5
BUSINESS IMPACT ANALYSIS

Although SEPS and DIT have identified most of the FDIC’s essential contracts, the current BIA
questionnaire does not solicit key information on these contracts. The FDIC’s EPP was revised
in January 2007 to include procedures for identifying essential contractors. However, the
procedures for conducting the BIA, dated November 19, 2003, do not contain provisions dealing
with essential contractors’ support such as contractor emergency plans; essential subcontracts;
and testing, training, and exercise requirements. As a result, the FDIC’s BIA process may not
fully document or consider information that can be useful in planning for essential contract
services in an emergency.

Use of Emergency Preparedness Clauses

FDIC Circular 1500.5 focuses attention on business continuity planning as the means for
resuming and restoring critical business processes during an emergency. The FDIC uses the BIA
to make annual updates to the BCPs. The FDIC relies extensively on contractors; therefore,
contractor support is a key component of the BIA and business continuity planning.

We also reviewed the best practices for financial institutions as described in the Federal
Financial Institutions Examination Council (FFIEC) Business Continuity Planning IT
Examination Handbook, issued in March 2003. The FFIEC provides guidance to financial
institutions and examiners on evaluating financial institution and service provider risk
management processes, including guidance on conducting the BIA. The focus is on business
continuity planning, whereby financial institutions ensure the maintenance or recovery of
operations when confronted with adverse events, such as natural disasters, technological failures,
human error, or terrorism.

The FFIEC recommends that financial institutions ensure that key contractors/service providers
are identified and backup arrangements are stipulated in contracts for services. The FFIEC also
recommends that the BIA should solicit the critical outsourced relationships and dependencies
and that each department should document the mission-critical functions performed by these
outsourced relationships. Further, the FFIEC recommends that personnel responsible for the
BIA consider developing uniform interview and inventory questions that can be used on an
enterprise-wide basis. Uniformity can improve the consistency of responses and help personnel
involved in the BIA phase to compare and evaluate business process requirements. The FFIEC
handbook indicates that the BIA should solicit the critical outsourced relationships and
dependencies.

The SEPS and DIT personnel who conducted the BIA provided us with a detailed description of
the process and told us that although the BIA procedures and questionnaire do not include
questions on essential contracts, SEPS and DIT plan to discuss essential contracts during their
BIA meetings with the divisions and offices. SEPS stated that the name of the contract and the
contractor key points of contact are included in the BCP.

To help ensure that critical information on essential contractors is obtained during the BIA and a
standard procedure is used for updating essential contractor information in the BCP, the FDIC’s




                                                6
policy and procedures for conducting the BIA and the BIA questionnaire could be amended to
solicit additional information about essential contracts such as:

•     the purpose of the contract;
•     how the contractor may need to alter operations for the FDIC in an emergency;
•     the critical services required from contractor personnel and potential disaster cost impact;
•     the timeframes during which the services would be required and system recovery windows;
•     whether the contractor is required to have an emergency plan that addresses FDIC activities
      and to submit the plan to the FDIC for review;
•     whether the contract includes an emergency preparedness clause;
•     essential subcontracts; and
•     testing, training, and exercise requirements for the contractors’ support provided to the FDIC.

Obtaining responses to these questions and others determined to be important in the BIA
questionnaire would result in more complete information for the FDIC’s business planning
activities, consistency and uniformity in information obtained, and assistance to program
managers in identifying essential contracts and subcontracts. This information would also
facilitate the consideration of contractor support in testing, training, and exercise activities.

Recommendation

(1)      We recommend that the Director, DOA, amend, as appropriate, the BIA procedures and
         questionnaire for obtaining additional information on essential contracts and for using the
         contractor-related responses in the BCP.

BUSINESS CONTINUITY PLANNING

The FDIC could improve its contract planning for business continuity to ensure all essential
contractors and subcontractors are required to provide services for the FDIC in an emergency.
The EPP includes requirements for the identification of essential contractors needed to operate
during an emergency. However, APM contracting procedures do not require that program
officials determine whether a contract is essential for business continuity when preparing a
Statement of Work for the contract. In 2005, DOA completed a review of essential contracts and
modified them to include an emergency preparedness clause. However, contracts awarded since
the DOA contract review that may be essential to the FDIC’s mission had been awarded without
an emergency preparedness clause. Also, the FDIC has not established procedures to ensure that
key subcontractors on the FDIC’s essential contracts are prepared to provide essential services in
an emergency. As a result, essential contractors and subcontractors may not be routinely
identified as part of the procurement process for purposes of business continuity planning
activities, and the scope of their emergency responsibilities may not be well defined.

Contracting Procedures for Essential Services

During 2005, SEPS and DIT determined that eight contracts were essential for business
continuity. Because DOA had not established a procedure for evaluating whether contracts were
essential for business continuity when originally awarded, these contracts did not include an



                                                   7
emergency preparedness clause. Instead, partly in response to an FDIC OIG report, FDIC’s
Business Continuity Plan (Report No. 04-029, dated August 9, 2004), SEPS and DIT determined
which contracts were essential and then modified those contracts to include an emergency
preparedness clause as follows.

       If, at any time during the performance of this contract, the FDIC requires services
       essential or critical to its mission due to an actual or threatened emergency situation as
       declared by the federal, state, or local authority, the contractor shall provide all resources
       necessary to support these services. If an actual or threatened emergency exists, the
       contractor shall take immediate and effective measures to ensure the availability or use of
       back-up or redundant services to support the emergency situation without any disruption.
       Any needed back-up or redundant services shall be provided for as long as the actual or
       threatened emergency situation exists.

       Any costs associated with providing back-up or redundant services shall be reimbursed at
       the previously negotiated labor rates. After receipt of the FDIC’s notification requiring
       services essential or critical to its mission, the contractor shall submit an equitable
       adjustment proposal for the back-up or redundant services. The equitable adjustment
       proposal shall include, as a minimum, a breakdown of the labor categories involved, the
       total estimated hours for each labor category, the negotiated labor rate, and the total
       cost/price.

The APM does not require the routine identification of essential contracts. Therefore, new
contracts may not include emergency preparedness requirements. For example, DIT’s
Information Technology Applications Systems (ITAS) contract, which totals $554.8 million for
IT systems development and maintenance, was not awarded until after the 2005 identification
process had been completed and was not modified to include the emergency preparedness clause.

While SEPS and DIT personnel plan to include questions about essential contracts in their future
BIA interviews, the BIA was not conducted during 2006 because of the FDIC’s move to Virginia
Square. As of February 1, 2007, the ITAS contract had been in effect for 19 months without an
emergency preparedness clause.

The ITAS contract is a multi-vendor contract with 4 contractors and 18 current task orders.
According to DIT, some of the task orders provide essential support to DIT and should include
the emergency preparedness clauses. If FDIC contracting procedures had required that program
officials include emergency preparedness clauses in contracts and task orders that provide
essential support, program officials would be on notice of such a requirement and could have
taken the steps necessary to ensure that the contractors were prepared to provide such critical
services for FDIC’s IT systems. The FDIC’s ability to maintain critical operations during an
emergency could be improved by ensuring that all essential contracts include the appropriate
emergency preparedness/business continuity clauses. This can be accomplished by including
emergency preparedness provisions in the Statement of Work for essential contracts as part of
the solicitation process for contractor proposals.




                                                 8
Contracting Procedures for Subcontractors

The FDIC has not established procedures or taken action to ensure that key subcontracts for the
FDIC’s essential contracts include emergency preparedness clauses. As discussed earlier, the
FDIC has identified eight contracts that are considered essential to maintain the FDIC’s critical
functions in the event of an emergency or business continuity scenario. Two of these eight
contracts are critical to the FDIC’s IT systems and have multiple subcontractors. The FDIC has
not required the prime contractors to ensure that subcontracts for work on essential FDIC
contracts have emergency preparedness requirements. Therefore, the FDIC does not have full
assurance that the prime contractor will be able to perform in cases where subcontractors provide
critical support to essential prime contractors.

The following examples illustrate the need for consideration of subcontractor emergency
preparedness requirements. DIT has an Interagency Agreement with the General Services
Administration (GSA), through which a task order, the Infrastructure Services Contract (ISC)
was awarded to SRA International, Inc. (SRA). This contract was awarded in September 2004
and was modified in May 2006 to include the emergency preparedness clause that had been
added to the FDIC contracts that had previously been identified as being essential for business
continuity. The SRA contract has an expenditure ceiling totaling $341 million and includes
services provided by three SRA subcontractors. Subcontracted services included work for
helpdesk and client support, mainframe operations, and telecommunications support services that
may be essential for business continuity. In addition, SRA used some short-term labor contracts
related to IT security and mainframe support. However, according to the DIT’s Oversight
Manager for the contract, none of the SRA’s subcontracts had been amended to include the
emergency preparedness clause when the overall contract was modified in 2006.

Also, as previously discussed, DIT’s ITAS contract does not contain the emergency preparedness
clause, and it is a multi-vendor contract with 4 contractors and 18 current task orders. As a result
of our audit work, the DIT Oversight Manager advised us that he was going to request that ASB
modify the ITAS contract to include the emergency preparedness clause. However, the FDIC
does not have a policy or procedures for ensuring that the prime contractors include the clause in
their subcontracts or to provide for other arrangements to ensure that subcontractors fulfill their
responsibilities in providing services. Because the SRA and the ITAS contractors have not
included the emergency preparedness clause in their essential subcontracts, the FDIC’s ability to
fully provide services in an emergency may be compromised.

Recommendation

(2) We recommend that the Director, DOA, amend the procedures in the Acquisition Policy
    Manual, or other procedures as appropriate, to require that Statements of Work for contracts
    and task orders under contracts contain:

    • business continuity requirements if contracted services are deemed essential in the event
      of an emergency or business continuity event,




                                                 9
    • requirements that essential contractors include emergency preparedness and business
      continuity provisions in essential subcontracts.

BCP PROCEDURES FOR CONTRACTOR TESTING, TRAINING, AND EXERCISES

The FDIC has not established procedures requiring essential contractors to provide the FDIC
with evidence of their emergency plans for FDIC critical business functions or for participation
in the FDIC’s BCP testing, training, and exercises. According to SEPS, ASB, and Legal
Division personnel, the FDIC’s practices for ensuring that essential contractors provide services
in an emergency are limited to the inclusion of an emergency preparedness clause in the contract.
This clause is intended to put contractors on notice that the services they provide are critical to
the FDIC’s mission and that the FDIC would require the continuation or expansion of these
services in an emergency. However, without verifying contractors’ emergency plans for FDIC
critical functions and including contractors in FDIC BCP testing, training and exercises, the
FDIC does not have adequate assurance that essential contractors will be able to provide the
FDIC the service coverage that may be required during a business continuity scenario.

Testing, Training, and Exercises

FDIC Circular 1500.5 requires that the Assistant Director, SEPS, coordinate and facilitate
emergency preparedness training and exercise events. Specifically, the circular requires that the
Assistant Director develop strategies for maintaining a viable emergency response capability that
includes training and exercise activities and milestones, coordinating with senior FDIC
management on these activities, and identifying and resolving resulting issues and concerns. The
circular also refers to testing with respect to the use of recall rosters. Since the FDIC relies
extensively on essential contractors, contractor support is a key component of the FDIC’s
emergency response capability.

In addition to reviewing the requirements of FDIC Circular 1500.5, we reviewed the best
practices for financial institutions described in the FFIEC Business Continuity Planning, IT
Handbook. The FFIEC recommends that financial institutions obtain a copy of vendors’ BCPs
and incorporate them into their business continuity plans. The FFIEC also recommends that
contracts address the service providers’ responsibilities for maintenance and testing of disaster
recovery and contingency plans and that, if possible, respective institutions should consider
participating in their service providers’ testing process. While the FDIC is not required to follow
the FFIEC guidance, industry best practices recommend that essential contracts be identified and
their business continuity plans be tested to ensure the continuity of operations.

Although the FDIC has conducted business continuity exercises to test the FDIC’s BCPs, the
FDIC has not included contractors’ business continuity activities in any of these events. Further,
the FDIC does not have policies and procedures in its APM to address contractors’ emergency
planning and the verification of the contractors’ operational capacities through testing, training,
and exercises to determine whether the contractors have the ability to provide services expected
by the FDIC in the event of an emergency.




                                                10
For most of the contracts identified as essential, DOA has submitted an emergency preparedness
clause to the contractor for concurrence and inclusion in a contract modification. Nevertheless,
with the exception of one essential contract related to the FDIC’s Call Center,8 the FDIC has not
requested that the other essential contractors provide their emergency plans for FDIC review or
required that essential contractors affirm that their organization has a business continuity or
emergency preparedness plan. The one contract that does require the contractor to provide its
emergency plan resulted from the initiative of the individual contract manager and not in
response to FDIC’s policies or procedures.

According to SEPS and Legal Division personnel, including contractors in emergency
preparedness testing, training, and exercises has not been discussed or recommended to FDIC
senior management. Also, Circular 1500.5 does not specifically refer to including contractors in
these activities. However, as part of fulfilling its overall responsibilities for testing, training, and
exercises of business continuity planning, the FDIC could more fully consider its reliance on
essential contractors and the need to assess their capabilities, including those of their essential
subcontractors, to respond in the event of an emergency. Doing so will help ensure available
emergency response capability.

Recommendation

(3)       We recommend that the Director, DOA, amend:

          •   procedures in the Acquisition Policy Manual, or other procedures as appropriate, to
              provide that Statements of Work for essential contracts and task orders ensure that
              contractors have emergency plans for providing services to the FDIC in the event of a
              disruption of normal operations and participate in the FDIC’s business continuity
              testing, training, and exercises.

          •   Circular 1500.5, FDIC’s Emergency Preparedness Program, to include essential
              contractors in FDIC’s BCP planning and testing, training, and exercises.

CORPORATION COMMENTS AND OIG EVALUATION

The Director, DOA, provided a written response, dated March 30, 2007, to a draft of this report.
DOA’s response is presented in its entirety in Appendix II. DOA concurred with each of the
three recommendations and has taken the following corrective actions:

      •   revised the BIA questionnaire for immediate use. The questionnaire includes the
          identification of critical contractor/subcontractor staff and whether they have an
          Emergency Plan which can be incorporated into the FDIC Business Continuity Plan.

      •   updated the Requirements Package Checklist in the APM to include the requirement that
          any Statement of Work for essential services contain business continuity requirements as
          well as emergency preparedness and business continuity provisions in essential
8
  The FDIC Call Center is the primary telephone point of contact for the banking industry and the general public. It
is critical to the FDIC’s mission because it assists in maintaining public confidence in the nation’s financial system.



                                                          11
        subcontracts. Additionally, the checklist was updated to require that essential
        contractors participate in the FDIC’s business continuity planning, testing, training, and
        exercises.

    •   revised Circular 1500.5, entitled FDIC’s Emergency Preparedness Program to include
        essential contractors in FDIC’s BCP planning, testing, training, and exercises.

DOA’s actions effectively address the recommendations, and we consider all the
recommendations closed. Appendix III presents a summary of DOA’s responses to our
recommendations and the corrective actions taken.




                                                12
                                                                                 APPENDIX I



                      OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the FDIC has planned for essential contract services to
be provided in the event of an emergency that requires the implementation of the BCP. Our
scope was limited to the contracts identified by SEPS and the DIT Security Section as essential
for business continuity and that are included in the FDIC’s Headquarters BCP as of December 1,
2006. We conducted the audit from November 2006 through January 2007 in accordance with
generally accepted government auditing standards.

To accomplish our objective, our methodology included reviewing the following documents:

•   FDIC Circular 1500.5, FDIC Emergency Preparedness Program, dated December 28, 2004,
    and the revised Circular 1500.5, dated January 30, 2007. (The provisions outlined in this
    circular serve as the official policy for FDIC Headquarters and regional offices in
    developing, implementing, and maintaining a BCP.)
•   FEMA FPC 65 Federal Executive Branch Continuity of Operations.
•   GSA’s Occupant Emergency Program Guide.
•   National Institute of Standards and Technology (NIST), U.S. Department of Commerce,
     Contingency Planning Guide for Information Technology Systems.
•   FFIEC’s Business Continuity Planning IT Examination Handbook, issued March 2003.
•   Certified Information Systems Auditor Review Manual 2006, Business Continuity and
    Disaster Recovery.
•   Appendix III to the U.S. Office of Management and Budget Circular No. A-130, Security of
    Federal Automated Information Resources.
•   FDIC’s Procedure for Conducting a Business Impact Analysis, dated November 19, 2003.
•   FDIC OIG’s Evaluation Report, Number 04-029 entitled, FDIC’s Business Continuity Plan,
    dated August 9, 2004; and FDIC OIG’s Evaluation Report, Number 03-042 entitled, Business
    Continuity Planning at FDIC-Supervised Institutions, dated September 25, 2003.

To identify FDIC procedures and practices for contract planning and management for business
continuity, we obtained information from the following FDIC officials:

•   Assistant Director, Security and Emergency Preparedness Section, DOA
•   Chief, Transportation and Emergency Response Unit, DOA
•   Assistant Director, IT Contracting Section, DOA
•   Assistant Director, ASB, DOA
•   Procurement Analyst, ASB, DOA
•   Contract Oversight Manager, DIT
•   Chief Oversight Support Section, DIT
•   Supervisory IT Specialist, Security Section, DIT
•   Senior IT Specialist, Security Section, DIT
•   Senior Counsel, Legal Division

Our methodology did not include a review of the FDIC’s BCP, which was being revised during
our audit.



                                              13
                                                                                   APPENDIX I



Internal Management Controls

We evaluated the effectiveness of controls in place for identifying essential contracts for
business continuity and ensuring emergency preparedness clauses had been included in contracts
deemed essential for business continuity. These controls included the policies and procedures
for conducting a BIA and BCP. In the absence of written policies, we relied on interviews and
information obtained from the Assistant Director, SEPS, who is responsible for the FDIC’s BCP,
and other DOA and DIT officials.

Compliance With Laws and Regulations

We coordinated reviews of laws, directives, and plans with the OIG’s Office of Counsel to
determine applicability to the FDIC and to gain an understanding of applicable laws and
regulations. We found no instances where the FDIC was not in compliance with applicable laws
and regulations.

Government Performance and Results Act, Computer-Processed Data, and Fraud or
Illegal Acts

We reviewed DOA’s performance measures under the Government Performance and Results
Act, Public Law 103-62 (GPRA). We reviewed the FDIC’s 2006 Annual Performance Plan and
the FDIC’s Strategic Plan for 2005-2010 to determine whether the FDIC has established goals
related to contract planning and management for business continuity. Neither plan includes
goals, objectives, or indicators specifically related to the subject of our audit.

We did not rely on computer-processed data to support our significant conclusions, findings, and
recommendations, and, as a result, did not perform work to determine the reliability of such data.

Our audit program included steps for providing reasonable assurance of detecting fraud or illegal
acts, and none came to our attention.




                                               14
     APPENDIX II




16
     APPENDIX II




17
                                                                                               APPENDIX III



                      MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the
status of the recommendations as of the date of report issuance.

                                                                                                        Open
Rec.                                                  Completion       Monetary Resolved: a               or
No.           Corrective Action Taken                 Date             Benefits Yes or No               Closed
  1           Revised the BIA questionnaire to        March 13, 2007       N/A        Yes              Closed
              include identification of critical
              contractor/subcontractor staff and
              whether they have an Emergency
              Plan which can be incorporated into
              the FDIC BCP.
      2       Updated the Requirements Package        March 21, 2007       N/A        Yes              Closed
              Checklist in the APM to require
              that any Statement of Work for
              essential services contain business
              continuity provisions as well as
              emergency and business continuity
              provisions in essential subcontracts.
      3       Updated the Requirements Package        March 21, 2007       N/A        Yes              Closed
              Checklist in the APM to require
              that any Statement of Work for
              essential services contain
              requirements for the contractor to
              have emergency plans for providing
              services to the FDIC in the event of
              a disruption of normal operations
              and to participate in the FDIC’s
              business continuity planning,
              testing, training, and exercises.

              Revised Circular 1500.5 to include      March 13, 2007       N/A        Yes              Closed
              essential contractors in FDIC’s
              BCP planning, testing, training, and
              exercises.
a
    Resolved-(1) Management concurs with the recommendation, and the planned corrective action is consistent
                 with the recommendation.
             (2) Management does not concur with the recommendation, but planned alternative action is
                 acceptable to the OIG.
            (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                 Monetary benefits are considered resolved as long as management provides an amount.
b
 Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the
recommendation can be closed.




                                                           18
